          Office of Audits
          Office of Inspector General
          U.S. General Services Administration



     RECOVERY ACT REPORT -
     Southeast Sunbelt Region Construction Manager
     as Constructor Contracts
     Audit of PBS’s Major Construction and
     Modernization Projects Funded by the American
     Recovery and Reinvestment Act of 2009
     Report Number A090172/P/R/R12009
     September 28, 2012




A090172/P/R/R12009
                 Office of Audits
                 Office of Inspector General
                 U.S. General Services Administration


    DATE:            September 28, 2012

    TO:              Dorothy L. Robyn
                     Commissioner, Public Buildings Service (P)

    FROM:            Nicholas V. Painter
                     Regional Inspector General for Auditing
                     Southeast Sunbelt Region Field Audit Office (JA-4)

    SUBJECT:         Recovery Act Report – Southeast Sunbelt Region Construction
                     Manager as Constructor Contracts
                     Audit of PBS’s Major Construction and Modernization Projects
                     Funded by the American Recovery and Reinvestment Act of 2009
                     Audit Number A090172/P/R/R12009

As part of our oversight of the General Services Administration’s (GSA) American
Recovery and Reinvestment Act projects, we noted several matters that warrant your
attention. The Public Buildings Service (PBS) awarded construction service contracts
for the Dr. A.H. McCoy (McCoy), Robert Smith Vance (Vance), and George C. Young
(Young) building modernization projects without obtaining adequate price competition.
In addition, PBS awarded and exercised the construction options for the Vance and
Young projects before design work had commenced. As a result, the construction
options were not enforceable when exercised, the obligations were invalid, and costs
increased as the designs were developed.

PBS awarded construction services without adequate price competition.

PBS awarded the contracts for the McCoy, Vance, and Young modernization projects
as Construction Manager as Constructor (CMc) contracts. This type of contract is
initially awarded for design services 1 at a firm-fixed price with an option for construction
phase services at a Guaranteed Maximum Price (GMP). The GMP should be submitted
by the bidder as part of the bid proposal and is comprised of the Estimated Cost of
Work, the Construction Contingency Allowance, and the contractor’s fee for
construction. The GMP is supposed to act as a ceiling price for the construction option.

1
 Design services include pre-construction activities such as ensuring the design complies with applicable
regulations, codes, and standards as well as ensuring the constructability of the design.

                                                   1
A090172/P/R/R12009
GSA should evaluate pricing for both the design phase services and the construction
phase options during the selection process.

However, for these projects, GSA provided the GMP to the bidders when the respective
Requests for Proposal were sent out. The McCoy Request for Proposal stated, “The
GMP for this project is $60,000,000. The $60,000,000 includes all work that will be
required to construct the building and includes the fee for the design phase services.”
The Requests for Proposal for the Vance and Young projects used the same language
to set the GMPs at $32 million and $35 million, respectively.

Because GSA provided the GMP for each project, the total proposed contract prices
were identical. The only differences were the proposed allocations of costs among the
GMP components 2. Consequently, the pricing for the construction contracts was not
based on competition even though GSA received multiple bids for each project and
used a competitive process based on the best value concept. Since price competition
was effectively eliminated, both the Federal Acquisition Regulation (FAR) and
Competition in Contracting Act were violated.

The price negotiation memoranda and/or source selection evaluation board reports for
these contracts indicate that the technical proposals were given greater weight than
price in making the award. However, achieving a fair and reasonable price is a constant
requirement of government contracting. FAR Part 15, which governs contracting by
negotiation, notes that “normally, price competition establishes price reasonableness.”
When offers are based on the maximum price set by GSA in the Request for Proposal
rather than competition, price is effectively eliminated as an evaluation factor in the
award process.

In addition, PBS exceeded FAR prohibitions regarding the type of pricing information
that may be provided in a solicitation. FAR 36.204 states, “advanced notices and
solicitations shall state the magnitude of the requirement in terms of physical
characteristics and estimated price range (emphasis added).” In these procurements,
PBS provided the exact GMPs for the CMc contracts.

PBS personnel assert that PBS did not violate competition requirements; that instead,
the three projects’ Requests for Proposals erroneously used the terms “project budget”
and “Guaranteed Maximum Price” interchangeably, and that both terms reflected the
maximum budget for construction services that the Government would accept. Further,
PBS asserts that offerors had the option to propose any pricing for the GMP
components. However, as discussed above, the Request for Proposals set the GMPs
in each case and resulted in all offerors submitting bids at these respective amounts.
Therefore, PBS did not obtain adequate price competition for these contracts.


2
 Region 4 included design phase services along with the Estimated Cost of Work, Contingency
Allowance, and the contractor’s fee in their GMP.

                                                 2
A090172/P/R/R12009
PBS awarded and exercised               options    for   construction     prior   to   design
commencement.

According to PBS’s “Policy and Procedures for using the Construction Manager as
Constructor Project Delivery Method,”

       The [Request for Proposals] is issued when design requirements have
       been developed to a sufficient degree of specificity to permit competing of
       offers with meaningful pricing for reliable differentiation, and also early
       enough in design to maximize the value of the CMc’s Design Phase
       services. The CMc should be competed on the basis of a complete
       program and final design concepts.

While this guidance was issued subsequent to the Region 4 CMc procurements, 3 it
underscores the importance of the timing of CMc solicitations and the need for design
requirements to be sufficiently developed before a solicitation is issued.

This did not occur in the case of the Vance and Young projects. PBS awarded the CMc
contracts and exercised the construction phase options before it had awarded these
design contracts. 4

Since the designs had yet to be developed, the construction options were not specific
as to the services to be rendered and did not contain sufficient detail to be enforceable
contracts. Therefore, the associated funding obligations were improper and invalid. An
obligation is “a definite commitment which creates a legal liability of the Government for
the payment of appropriated funds for goods and services ordered or received,” and
occurs when an agency enters into a binding agreement requiring the payment of funds.
However, as in these instances, if the agreement is incomplete, it is not an enforceable
contract and therefore a legal liability has not been created and an obligation has not
been incurred. In these instances, PBS improperly obligated $32 million for the Vance
project and $35 million for the Young project by exercising the respective construction
options.

Further, if construction contracts are awarded before design has been sufficiently
developed, scope changes that may result in considerable cost increases become
increasingly likely.   For both of these projects, cost increases resulted from
modifications that became necessary as the scope became more defined. For the


3
 Issued February 8, 2011
4
 The Vance construction option was awarded and exercised on June 23, 2009, while the
Architect/Engineering (A/E) contract was awarded on July 27, 2009. For the Young project, the
construction option was awarded and exercised on July 27, 2009; the A/E contract was awarded on
September 3, 2009.


                                              3
A090172/P/R/R12009
Vance project, the GMP increased from $32 million to nearly $39 million. Similarly, the
GMP for the Young project went from $35 million to approximately $47.6 million.

PBS personnel also disagreed with this finding and indicated that, despite the fact that
no design contract was in place at the time the construction options were exercised for
the Vance and Young projects, the Program Development Studies had been developed
to a degree of specificity to permit competing of offers with meaningful pricing for
reliable differentiation. However, without a design, the project scope lacked the
specificity for a binding contract. This is emphasized by FedBizOpps postings for
modifications to both projects, which state:

      At the time of solicitation and award, the design had not yet commenced.
      The award of a GMP contract, without a design in place, was anticipated
      to be adjusted to reflect conditions that may occur after refinement of the
      design. Such a living award document is necessary during the refinement
      of the scope of work.

This indicates that the project did not have a binding scope and was at risk for
increasing costs due to insufficient design development.

Conclusion

GSA did not take the steps necessary to ensure the CMc contracts for these three
projects were properly procured. In all three cases, GSA effectively eliminated price
competition and violated both FAR and Competition in Contracting Act contracting
requirements by providing the GMP in the contract solicitation. In addition, on two of the
projects, GSA exercised the options for construction prior to the award of the design
contracts. As a result, the contracts were unenforceable, the obligations were invalid,
and the costs increased.

Recommendation

We recommend that the PBS Commissioner:

   1. Obtain a legal review to address concerns created by the insufficient scopes of
      work in the base contracts for the Vance and Young projects and determine
      whether action is necessary to ensure the validity of these contracts.

Management Comments

In its comments, management acknowledged the audit findings and obtained a legal
review as recommended in the report (see Appendix B).

We appreciate the support that has been provided throughout this audit. If you have
any questions about this report, please contact me at (404) 331-5520.

                                            4
A090172/P/R/R12009
Sincerely,



Nicholas V. Painter
Regional Inspector General for Auditing (JA-4)




                                           5
A090172/P/R/R12009
Appendix A – Purpose, Scope, and Methodology

Background

The American Recovery and Reinvestment Act (Recovery Act) provided GSA with
$5.55 billion for its Federal Buildings Fund. In accordance with the Recovery Act, the
GSA Public Buildings Service (PBS) is using these funds to convert federal buildings
into High-Performance Green Buildings as well as to construct federal buildings,
courthouses, and land ports of entry. The Recovery Act mandated that $5 billion of the
funds be obligated by September 30, 2010 and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting
oversight of the projects funded by the Recovery Act.

The Recovery Act is funding three major modernization projects in GSA’s Southeast
Sunbelt Region: The Dr. A.H. McCoy, Robert Smith Vance, and George C. Young
federal buildings. PBS used the Construction Manager as Constructor (CMc) contract
vehicle to award the construction contracts for each project. The initial CMc award for
each project was $60 million, $32 million, and $35 million, respectively.

Objective

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning,
awarding, and administering contracts for major construction and modernization
projects in accordance with prescribed criteria and Recovery Act mandates.

Scope and Methodology

To accomplish the objective we conducted a site visit to the Southeast Sunbelt Region,
reviewed the contract files and other pertinent project documents, met with project staff,
and reviewed applicable guidance and regulations. Our audit fieldwork for this report
was performed between March and June 2011.

Except as noted below, we conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act
projects as well as audit guidance being applied to all Recovery Act projects. A
separate guide was not prepared for this project.




                                          A-1
A090172/P/R/R12009
Appendix A – Purpose, Scope, and Methodology (cont.)

Internal Controls

As this work was performed under the continuing oversight of all GSA Recovery Act
projects, management controls have not been fully assessed. Only those management
controls discussed in the report have been assessed.




                                      A-2
A090172/P/R/R12009
Appendix B – Management Comments




                        B-1
A090172/P/R/R12009
Appendix B – Management Comments (cont.)




                         B-2
A090172/P/R/R12009
Appendix B – Management Comments (cont.)




                         B-3
A090172/P/R/R12009
Appendix C – Report Distribution

Acting Commissioner, PBS (P)

Acting Deputy Commissioner, PBS (P)

Acting PBS Chief of Staff (PB)

Regional Administrator (4A)

Regional Commissioner (4P)

Regional Counsel (LD4)

Regional Recovery Executive (4PN)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison (BCP)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Director, Office of Internal Operations (JI-I)

Investigator, Office of Internal Operations (JI-I)




                                            C-1
A090172/P/R/R12009
